<html>
<title> - MOVING THE AMERICAN EMBASSY IN ISRAEL TO JERUSALEM: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 
  MOVING THE AMERICAN EMBASSY IN ISRAEL TO JERUSALEM: CHALLENGES AND 
                             OPPORTUNITIES

=======================================================================

                                 HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2017

                               __________

                           Serial No. 115-44

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-071 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7413041b34170107001c1118045a171b195a">[email&#160;protected]</a>                        
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Jimmy Gomez, California
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna General Counsel
                  Ari Wisch, Professional Staff Member
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Minority Member
Justin Amash, Michigan               Val Butler Demings, Florida
Paul A. Gosar, Arizona               Peter Welch, Vermont
Virginia Foxx, North Carolina        Mark DeSaulnier, California
Jody B. Hice, Georgia                Jimmy Gomez, California
James Comer, Kentucky                Vacancy
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 8, 2017.................................     1

                               WITNESSES

The Hon. John Bolton, Senior Fellow, American Enterprise 
  Institute
    Oral Statement...............................................     5
    Written Statement............................................     7
The Hon. Dore Gold, President, Jerusalem Center for Public 
  Affairs
    Oral Statement...............................................    14
    Written Statement............................................    16
Mr. Morton Klein, President, Zionist Organization of America
    Oral Statement...............................................    24
    Written Statement............................................    26
Dr. Michael Koplow, Policy Director, Israel Policy Forum
    Oral Statement...............................................    49
    Written Statement............................................    51
Mr. Eugene Kontorovich, Professor of Law, Northwestern University
    Oral Statement...............................................    55
    Written Statement............................................    57

                                APPENDIX

Statement for the record of Ambassador Daniel Kurtzer, submitted 
  by Ranking Member Lynch........................................    88

 
  MOVING THE AMERICAN EMBASSY IN ISRAEL TO JERUSALEM: CHALLENGES AND 
                             OPPORTUNITIES

                              ----------                              


                      Wednesday, November 8, 2017

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Duncan, Amash, Foxx, 
Hice, Comer, Lynch, Welch, and DeSaulnier.
    Also Present: Representatives Jordan, Zeldin, Ross, Mast, 
Grothman, Meadows, and Issa.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    In 1995, Congress passed the Jerusalem Embassy Relocation 
Act, which states that Jerusalem is the capital of Israel, that 
it should remain an undivided city, and that the American 
Embassy should be relocated from Tel Aviv to Jerusalem. Yet, 
for more than 20 years, U.S. Presidents have signed waivers for 
stalling the Embassy move.
    To this day, 50 years after the liberation and 
reunification of Jerusalem, the State of Israel, one of 
America's strongest allies, is the only nation in the world in 
which the American Government refuses to locate its Embassy in 
the host nation's chosen capital.
    Now, as a candidate for President, Donald Trump promised to 
move the Embassy to Jerusalem, and he has reaffirmed that 
commitment since taking office. And there are good reasons why 
the President will follow through with his commitment.
    For one thing, U.S. policy should recognize Jerusalem as 
Israel's capital because Jerusalem has been the capital of the 
Jewish people for thousands of years and is the beating heart 
of modern Israel. Why should we reject the chosen capital city 
of a close ally?
    Second, Israel's stewardship of Jerusalem's holy sites has 
been tremendous, especially regarding religious freedom. During 
the Arab occupation of the Old City of Jerusalem, between 1949 
and 1967, Jews were systematically discriminated against and 
Christians were treated as second class citizens. Most of the 
Old City's synagogues were destroyed or desecrated. Under 
Israeli sovereignty, religious freedom is the rule, and the 
holy sites, Christian, Jewish, and Muslim, are treated with 
care and respect. The disrepair that plagued Jerusalem under 
Arab occupation has given way to a flourishing city that is one 
of the world's crown jewels.
    Third, following through with the commitment to move the 
Embassy will demonstrate American leadership. Leaders in the 
Middle East respect the strong horse, and acting with 
decisiveness to defend American interests and to stand by a 
close ally is far more preferable to defaulting on a key 
promise like past leaders have done.
    Fourth, the Embassy can be relocated to one of the sites in 
Jerusalem that the U.S. already controls. This can be as simple 
as changing the sign on one of the existing consulates. For 
example, the consulate annex in Arnona combined eventually with 
the adjacent Diplomat Hotel can be a sizeable complex that 
provides adequate security. That the annex in Arnona straddles 
the 1949 armistice line also counsels in its favor as a 
potential site.
    The Trump administration has delayed moving the Embassy in 
light of its efforts to pursue a peace deal between Israel and 
the Palestinian Arabs, but there are incremental steps that the 
Trump administration could take in the meantime.
    The State Department should allow Americans born in 
Jerusalem to list Jerusalem/Israel on their passports. The U.S. 
Ambassador should make a point to conduct at least part of his 
workweek from Jerusalem, and the American consulates in 
Jerusalem should report to the American Embassy in Israel, not 
directly to the State Department.
    Now some say the U.S. can't move its Embassy to Jerusalem 
because that enrage elements of the so-called Arab street and 
provide a pretext for acts of terrorism. And who knows? That 
may be true, but does it make sense to shirk from doing what is 
right for fear of what our enemies might do?
    With the advent of the Trump administration, the U.S.-
Israel relationship is probably stronger than it has ever been. 
Our countries have shared security interests, common cultural 
ties, and mutually beneficial economic relationships. 
Relocating the Embassy to Jerusalem, especially if done in 
2017, the 50th year anniversary of Jerusalem Day, will make the 
relationship that much stronger.
    I want to welcome our distinguished panel of witnesses here 
today. We look forward to hearing your testimony.
    And I'm happy to recognize my friend, the ranking member, 
Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you very much, Mr. Chairman, and thank you 
for holding this hearing.
    It is my understanding that today's hearing will include 
the examination of the national security challenges related to 
the immediate relocation of the U.S. Embassy in Israel from Tel 
Aviv to Jerusalem. And to this end, I would like to thank all 
of our witnesses for appearing before the committee today to 
help us with our work.
    Thank you, gentlemen.
    Our strong and enduring bilateral relationship with the 
State of Israel is founded on genuine bonds of friendship and 
indeed kinship that are unshakable. These profound and long-
standing ties with our closest regional ally are reflected in 
our unwavering commitment to Israel's security, as well as 
robust U.S.-Israel cooperation on a range of critical issues, 
economic, intelligence, and defense matters.
    We also afford maximum respect to the historic and 
religious significance of Jerusalem and its holy sites to 
Israel. And I do join the chairman in my own experience and 
with many of our committee colleagues, having been to Jerusalem 
on many occasions, appreciate the religious freedom that is 
available now in Jerusalem. And we've taken full advantage of 
those opportunities to spend time with our friends in Jerusalem 
and enjoy the wonderful, wonderful benefits of that city.
    The proposal to unilaterally and immediately relocate the 
U.S. Embassy in Israel to Jerusalem instead presents a specific 
question of whether such action would truly protect and 
preserve U.S., Israeli, and regional security interests. I am 
strongly concerned that we must proceed with caution, that a 
decision unilaterally by the current administration to simply 
disregard the positions of other regional partners on this 
matter that had been expressed by the governments of Jordan and 
Egypt and other regional Arab nation partners, will prove 
ultimately detrimental to U.S., Israeli, and regional security 
interests in the near term.
    In February of this year, King Abdullah of Jordan reported 
to members of the House Foreign Affairs Committee that moving 
the U.S. Embassy to Jerusalem now, unilaterally, will threaten 
the two-state solution and could lead to a, ``violent 
escalation,'' in the Israeli-Palestinian conflict.
    The Government of Jordan has also publicly warned that such 
action would have catastrophic ramifications on regional 
stability and would mark a red line for Jordan.
    I would note that we recall that Jordan is a key U.S. and 
coalition partner, including with Israel, in countering the 
Islamic State, whose cooperation has included aircraft missions 
in support of Operation Inherent Resolve in Syria and Iraq, as 
well as the employment of Jordanian ground forces and special 
operators targeting Islamic State fighters along the Syrian, 
Jordanian, and Iraqi-Jordanian borders. We also are working 
with the Jordanian Government as it is accepting and continues 
to provide careful influx of over 660,000 Syrian refugees to 
date.
    In a cautionary note, Foreign Minister Sameh Shoukry of 
Egypt, another regional security ally protecting the interests 
of Israel and the United States and democratic interests in the 
region, has called the proposed immediate Embassy relocation, 
``a very inflammable issue at this moment,'' and asserted that 
this is one of the final status issues that has to be addressed 
between the two sides, resolved through negotiations with 
respect to the Palestinians.
    Egypt is an official member of the global coalition to 
defeat the Islamic State. Moreover, about 700 troops, I had a 
chance to visit them in the Sinai fairly recently, are 
currently stationed in Egypt's Sinai Peninsula as part of an 
international peacekeeping force that partners with the 
Egyptian military to stabilize the region against insurgents 
from the Islamic State affiliate in the Sinai Province group 
and other militant organizations, including Islamic Jihad.
    In a statement submitted to our committee for this hearing, 
Ambassador Daniel Kurtzer, Ambassador to Israel under President 
George Bush and Ambassador to Egypt under President Clinton, 
notes that the immediate relocation of the U.S. Embassy to 
Jerusalem would not only cross a red line for the Palestinians 
but also, ``for many Arab and Muslim states, including those 
with whom we share friendship and regional security 
interests.''
    Ambassador Kurtzer additionally explains that if the United 
States were to engage in unilateral action on this central 
disputed issue, we would substantially undermine our ability to 
persuade the parties themselves or other third parties to avoid 
from doing so.
    I ask for unanimous consent that the statement of 
Ambassador Daniel Kurtzer be entered into the official record.
    Mr. DeSantis. Without objection.
    Mr. Lynch. So, in essence, I'm just advising caution that 
we consider the regional, including the Israeli security 
interest on this issue, and that we give respect to our allies 
in the region, again, moving forward but proceeding with 
caution.
    With that, I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair notes the presence of a number of our colleagues. 
We have the gentleman from Ohio, Mr. Jordan; the gentleman from 
Florida, Mr. Ross; the gentleman from New York, Mr. Zeldin; the 
gentleman from Florida, Mr. Mast; and the gentleman from 
Wisconsin, Mr. Grothman.
    I ask unanimous consent that these members be allowed to 
fully participate in today's hearing.
    Without objection, it is so ordered.
    I'm pleased to be able to introduce a really stellar panel 
of witnesses here today. We have Ambassador John Bolton, senior 
fellow at the American Enterprise Institute, and chairman of 
the Foundation for American Security and Freedom; Ambassador 
Dore Gold, president of the Jerusalem Center for Public 
Affairs; Mr. Morton Klein, president of the Zionist 
Organization of America; Dr. Michael Koplow, policy director at 
the Israel Policy Forum; and Mr. Eugene Kontorovich, professor 
of law at Northwestern University.
    I want to welcome you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you could please rise. Please raise 
your right hand.
    Do you solemnly swear that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth 
so help you God?
    The witnesses, all witnesses answer in the affirmative.
    And Ambassador Gold has affirmed that he will tell the 
truth as well. So you can be seated.
    Mr. Gold. We don't swear.
    Mr. DeSantis. I know, I know.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made a part of the record. And as a reminder, the clock in 
front of you shows your remaining time. The light will turn 
yellow when you have 30 seconds left and red when your time is 
up. Please, also remember to press the button to turn your 
microphone on before speaking.
    And, with that, I'd like to recognize Ambassador Bolton for 
5 minutes for his opening statement.

                       WITNESS STATEMENTS

             STATEMENT OF THE HONORABLE JOHN BOLTON

    Mr. Bolton. Thank you very much, Mr. Chairman, Ranking 
Member Lynch, members of the subcommittee. I appreciate the 
opportunity to appear before you today to discuss the important 
subject of moving the American Embassy in Israel to Jerusalem.
    I believe that recognizing Jerusalem is Israel's capital 
city and relocating our Embassy there on incontestably Israel 
sovereign territory would be sensible, prudent, and efficient 
for the United States Government.
    Indeed, fully regularizing the American diplomatic presence 
in Israel will benefit both countries, which is why, worldwide, 
the U.S. Embassy in virtually every other country we recognize 
is the host country's capital city.
    Relocating the Embassy would not adversely affect 
negotiations over Jerusalem's final status or the broader 
Middle East peace process, nor would it impair our diplomatic 
relations among predominantly Arab or Muslim nations.
    In fact, by its honest recognition of reality, shifting the 
Embassy would have an overall positive impact for U.S. 
diplomatic efforts.
    Over the years, as with so many other aspects of Middle 
Eastern geopolitics, a near theological and totally arid to 
scholasticism has developed here and abroad about the impact of 
moving the Embassy. Now is, in fact, the ideal time to sweep 
this detritus aside and initiate the long overdue transfer.
    It stands to reason that America's diplomats posted abroad 
should be located near the seat of government to which they are 
accredited. Proximity to host government political leaders, 
major government institutions, and representatives of domestic 
political, economic, and social interests all argue for the 
commonsense decision that U.S. representatives to a foreign 
state should be at that state's center of government.
    There may be logistical reasons for temporary deviations 
from this principle, but there is no compelling diplomatic 
business reason to wait nearly 70 years, as has been the case 
in Israel.
    Given Israel's geography, certain key national security 
institutions, such as the Ministry of Defense, are located in 
Tel Aviv, which means that legitimate considerations will 
dictate that a U.S. Embassy annex should remain there. But 
cost, efficiency, and effectiveness considerations also compel 
the conclusion that the bulk of our Embassy's personnel should 
follow the example of their colleagues and virtually the entire 
rest of the world and be moved to Israel's capital.
    Modern transportation and telecommunications capabilities 
notwithstanding, distance still imposes cost, both in time and 
resources, not to mention aggravation on our diplomats in 
Israel.
    Moreover, there is still no substitute to personal contact, 
face-to-face communication, and easy accessibility, especially 
in times of crisis, with key host government officials and 
political leaders.
    Moreover, security concerns, especially in the volatile 
Middle East, are always major factors and decisions to move 
existing diplomatic facilities to new locations within existing 
capitals where physical conditions are better suited to address 
contemporary risks assessments.
    So, while I think the overwhelming diplomatic and 
managerial advantages to the United States argue for 
relocation, there are obviously a number of political arguments 
to the contrary. I think there are three, basically.
    And I think it's important to take these arguments 
seriously, because many are made in good faith, but let's be 
honest, many are argued for precisely the opposite reason, to 
continue to deny to Israel the acknowledgment that it is a 
legitimate state with a legitimate capital.
    The three arguments basically are that moving the Embassy, 
even to West Jerusalem, would somehow affect final status 
negotiations about that city. I think this stems from U.N. 
General Assembly Resolution 181, which contemplated an 
international status for Jerusalem. That resolution was 
rejected by the Arab State shortly after it was passed. And 
let's face it, 181 is a complete dead letter today. Jerusalem 
will never be an international city, and we need to move on 
from it, as indeed the Russian Federation acknowledged earlier 
this year.
    The second argument is that it will break the broader 
Middle East peace process. And I have to say, if the peace 
process is such a delicate snowflake that moving our Embassy 
would destroy it, you have to ask what its viability is to 
begin with. And it's also to mistake pretext for cause. If 
somebody wants to demonstrate against the United States or 
Israel, can pick a lot of other pretexts as well, not just 
moving the Embassy.
    And, finally, to conclude, Mr. Chairman, we hear over and 
over again that we want to move the Embassy but the time is 
just not right. As they say in the Near East Bureau of the 
State Department, they only have to press one key on their 
computers to spit out the phrase ``at this particularly 
delicate point in the Middle East peace process.''
    In diplomatic circles, Mr. Chairman, ``not now'' too often 
means ``not ever.'' We should reject that counsel and move the 
American Embassy to Israel's capital city. Thank you.
    [Prepared statement of Mr. Bolton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you, Ambassador Bolton.
    Ambassador Dore Gold, you're up.

              STATEMENT OF THE HONORABLE DORE GOLD

    Mr. Gold. Chairman DeSantis, Ranking Member Lynch, and 
members of the subcommittee, I commend you for holding this 
hearing. It is my view that President Donald Trump has made a 
commitment regarding the transfer of the U.S. Embassy to 
Jerusalem, and I believe he will stand by what he has said. 
Indeed, on June 1st, the White House released a statement 
stressing that, with regard to moving the Embassy, ``the 
question is not if that move happens, but only when.''
    The U.S., of course, will have to consider many factors in 
making that decision. What is often overlooked in the debate 
about the location of the U.S. Embassy is why it matters. The 
Embassy question is a subset of a much more important issue: 
the need for Western recognition of Jerusalem as Israel's 
capital. That recognition is vital for several reasons. What 
I'd like to discuss is the international interest. That 
interest concerns the protection of holy sites and assuring 
complete freedom of access to them. Religious freedom and 
pluralism are core values which both our countries share.
    Protecting Jerusalem's holy sites is the responsibility the 
State of Israel assumed in law back in 1967 when Jerusalem was 
reunited after the Six-Day War, for etched into the collective 
consciousness of all of us is what happened to Jerusalem when 
we were absent and when we were barred from that city, and what 
has happened to the holy sites since 1967, since Israel unified 
Jerusalem and protected access for all peoples and faiths. What 
is clear from a brief survey is that only a free and democratic 
Israel will protect the holy sites of all the great faiths in 
Jerusalem.
    Let me stress, to the extent the U.S. reinforces Israel's 
standing in Jerusalem, it is reinforcing core American and 
Western values of pluralism, peace, and mutual respect, and it 
is reinforcing the position of the only international actor 
that will protect these sites.
    Even today, it is surprisingly argued in certain diplomatic 
circles that the point of reference for any political solution 
on Jerusalem should be, or could be, U.N. General Assembly 
Resolution 181 from 1947, also known as the Partition Plan. 
This resolution called for establishing an international entity 
around Jerusalem, which it called the corpus separatum.
    I think Ambassador Bolton made the point well. This 
resolution is a dead letter because after, for example, in 
1949, after the U.N. failed to protect the Old City of 
Jerusalem from invading armies, our Prime Minister in December 
of that year stood in front of the Knesset and talked about the 
corpus separatum. David Ben-Gurion reminded his listeners that 
the U.N. did not lift a finger during 1948. And he said that 
Jewish Jerusalem could have been wiped off the face of the 
Earth had it not been for the newly created Israel Defense 
Forces, Tzahal, and the prestate of--military formations.
    Ben-Gurion then addressed internationalization. And I'm 
quoting him from 1949: ``We cannot today regard the decision of 
29 November 1947 as being possessed of any further moral force 
since the United Nations did not succeed in implementing its 
own decisions. In our view, the decision of 29 November about 
Jerusalem is null and void.'' Internationalization was not an 
option.
    Fast forward several years after the signing of the Oslo 
agreements. In July of 2000, Yasser Arafat and the PLO launched 
what became known as the Second Intifada. Religious sites were 
specifically targeted. In December 2000, in Bethlehem, Fatah 
operatives and Palestinian Security Services assaulted Rachel's 
Tomb. Two years later, 13 armed Palestinians from Hamas, 
Islamic Jihad, and Fatah Tanzim forcibly entered the Church of 
the Nativity in Bethlehem, the birthplace of Jesus and one of 
the holiest sites in Christianity. Violent attacks on Joseph's 
Tomb in Nablus were common in the same period.
    In Jerusalem, the key organization that represented radical 
Islam was called the Northern Branch of the Islamic Movement 
under Sheikh Raed Salah. It was an offshoot of the Muslim 
Brotherhood. Its leader falsely accused Israel of endangering 
the Al-Aqsa Mosque in Jerusalem, and it convened rallies under 
the banner ``Al-Aqsa is in Danger,'' inciting violence and 
hatred with this lie.
    Let me conclude with the following remark. Jerusalem must 
not be left to the vagaries of the Middle East. What we see is 
that religious sites are under attack across the entire region, 
from the famous attack of the Taliban on the--on the Buddhas, 
2000 year-old Buddhas in the Bamiyan Valley in Afghanistan to 
Coptic Orthodox churches in Egypt to the religious sites of 
Iraqi Christians and Yazidis in Iraq.
    There is a regional assault going on against holy sites. It 
is under way across the whole area. Israel deserves your 
support as it defends Jerusalem from these kinds of assaults. 
As I said earlier, only a free and democratic Israel will 
protect Jerusalem for all the great faiths.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Gold follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you, Ambassador Gold.
    Mort Klein, you're up.

                   STATEMENT OF MORTON KLEIN

    Mr. Klein. Thank you, Chairman and members. First of all, I 
have to say I have Tourette syndrome. I may make sounds I can't 
control. It's a neurochemical disorder. My father had it. He 
gave it to me. I've always thanked him for it.
    The U.S. should move the Embassy to Jerusalem, not only 
because it's the just and moral thing to do, but because it's a 
law, passed with bipartisan, almost unanimous support, almost 
22 years ago. Delaying implementation sends the message that 
Islamist threats and terrorism work, but moving the Embassy 
will strengthen American security and enhance worldwide respect 
for America by demonstrating the U.S. can be counted on to keep 
her commitments to her allies and will not, dare not, be 
intimidated by appeasing radical Islamic threats.
    If we allow U.S. policy to be determined by terror threats, 
we have only encouraged more such threats, more such terror, 
and undermined the U.S. campaign to eradicate radical Islamic 
terror. And Israeli control of Jerusalem is critical to 
security in all of Jerusalem and its surroundings.
    And moving the Embassy will not cause further Mideastern 
instability. Israel's relationship with Egypt and Jordan and 
Saudi Arabia are strong today because of strong mutual concerns 
and interests and threats from Iran. Moving the Embassy will 
not change this.
    The Jerusalem Embassy Acts waiver provision has been 
inappropriately used for 22 years. The act's drafters made it 
clear that the waiver was not intended to be invoked repeatedly 
or for policy disagreements, but only for a serious security 
emergency. Senate Majority Leader Bob Doyle said then: The 
President cannot lawfully invoke this waiver because he thinks 
it's better to move it at a later date. The President dare not 
infinitely push off the establishment of the American Embassy 
in Jerusalem.
    ``If a waiver were to be repeatedly and routinely exercised 
by a President, I would expect,'' said Dole, ``that Congress 
should remove the waiver authority.''
    And by the way, Dole and Kyl, who I spoke to at the time, 
told me the President should never use it, once or twice at the 
most.
    We haven't moved the Embassy for 22 years, yet we're 
further from peace today than we were 22 years ago. Not moving 
the Embassy did not help. Peace is impossible solely because of 
the Palestinian Arabs' refusal to accept Israel within any 
border, their refusals to even negotiate and outlaw terrorist 
groups, and refusal to end the promotion of hatred and murder 
and violence in their speeches, schools, and media. They are 
continuing to pay Arabs to murder Jewish people. It's an 
outrage. This is the regime we're talking about. In addition, 
they have now reconciled with the terrorist group, Hamas. This 
tells you their real intentions. This is the emblem that Abbas 
commissioned of the Fatah party of the Palestinian Authority. 
You see all of Israel there with a Kofia over it, a Kalashnikov 
rifle, and the arch-terrorist Arafat. These are the types of 
posters they put up in schools, universities, and high schools 
showing, honoring killers, murderers of innocent people when 
they commit their heinous crimes.
    We have to tell them the jig is up, that the only way for 
peace is if we hold them accountable and say there will be no 
more money, no more support to the Palestinian Authority, no 
more American money, unless they change. Remember, the greatest 
outbreak of Palestinian Arab violence occurred not after 
Israeli actions that the Palestinians disliked but occurred 
when Israel offered unprecedented concessions and a Palestinian 
state in 2000. The PA has used any excuse to promote violence 
against Israel. And the only place in the Middle East where the 
Christian population has grown is in Israel. And under 
Jordanian control, 70 percent of the Christians left because of 
oppression, and under Palestinian control, 80 percent of the 
Christians left Bethlehem. Mahmoud Abbas, the President of the 
PA, made it clear that he would cut off access to religious 
sites by regularly making the astonishing racist statement, and 
I quote: In a final solution, we will never see a single 
Israeli civilian or soldier in our land. Jews and Christians 
have suffered greatly. Now their sites are under PA control. 
Jerusalem has been the capital only of Israel throughout 
history, never any other regime, country, or entity.
    I now turn to a rarely mentioned fact. Jerusalem is not 
very holy to Muslims. They have not treated Jerusalem as holy 
to them when they controlled it. During Arab Muslim control of 
Eastern Jerusalem, they allowed it to become a slum. There was 
virtually no water, electricity, or plumbing. Jordan built its 
royal residence and universities in Amman, not Jerusalem. They 
broadcast their Friday prayers from a mosque in Amman, not the 
Al-Aqsa in Jerusalem. In the Holy Koran, Jerusalem is never 
mentioned. In the Jerusalem Holy Books, it's mentioned 700 
times.
    But Abbas and others claim that Muhammad flew from a winged 
horse from Jerusalem to Heaven, and I don't have time to get 
into that. Let me just say, Jews face Jerusalem when they pray; 
Muslims face Mecca. When Jerusalem was under Arab control, not 
a single Arab leader, other than King Hussein and his father, 
visited. If it's so holy, why didn't others visit it? It belies 
their claim of holy status.
    Chuck Schumer, the Democratic minority leader, has recently 
stated: Move the Embassy to Jerusalem now, an undivided 
Jerusalem.
    Senator Joe Biden, at the time future Vice President, said, 
quote: ``Moving the U.S. Embassy to Jerusalem will send the 
right signal, not a destructive signal. To do less would be to 
play into the hands of those who will try the hardest to deny 
Israel full attributes of statehood.''
    ``The only way,'' Biden said, ``there will be peace in the 
Mideast is for the Arabs to know there is no division between 
the U.S. and Israel.'' None, zero, none. Thank you very much.
    [Prepared statement of Mr. Klein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. All right. Thank you, Mort Klein.
    The chair notes the presence of our colleague, the 
gentleman from North Carolina, Mr. Meadows. And I ask unanimous 
consent that he be allowed to fully participate in today's 
hearing.
    Without objection, it's so----
    Mr. Welch. Hold on now.
    Mr. DeSantis. I don't think he would want a recorded vote 
on that.
    The chair now recognizes Dr.Koplow for 5 minutes.

                  STATEMENT OF MICHAEL KOPLOW

    Mr. Koplow. Thank you, Mr. Chairman, Mr. Ranking Member, 
and members of the committee, for the invitation to appear 
before you to discuss the important issue of moving the 
American Embassy in Israel to Jerusalem.
    As the title of this hearing aptly notes, there are both 
challenges and opportunities in moving the Embassy from its 
current location in Tel Aviv that make this issue particularly 
thorny. The basic calculus at hand is to balance issues of 
fundamental fairness against potential harm to American 
security and diplomatic priorities and U.S allies in the 
region.
    Moving the Embassy to Jerusalem would rectify the historic 
wrong of locating the American Embassy in a city that is not 
Israel's declared capital. Israel's controlling rights to the 
modern city of Jerusalem are not today in dispute. Yet Israel 
is the only country whose capital is unrecognized. The presence 
of foreign embassies in Tel Aviv fuels the fear among Israelis 
that the full legitimacy of their state will never be 
acknowledged. Moving the Embassy to Jerusalem supports the 
basic notion of fairness, and maintaining the Embassy in Tel 
Aviv to remain in line with the rest of the international 
community is not sufficient reason to do so. There should be no 
ambiguity about Israel's true capital.
    Nevertheless, there are potentially damaging national 
security implications if the Embassy is moved to Jerusalem. It 
is for these reasons that every President, including most 
recently President Trump, has declined to move the Embassy 
since the Jerusalem Embassy Act of 1995 was passed, and they 
should be weighed seriously.
    There are three primary national security considerations 
for keeping the Embassy in Tel Aviv. The first is to prevent 
unnecessary violence. Jerusalem is possibly the most sensitive 
geopolitical site in the world and sudden moves there often 
lead to chaos that damages Israel's security in fundamental 
ways.
    The most deadly violence committed by Palestinians against 
Israelis, including the First and Second Intifadas, and the 
1996 Western War Tunnel riots are often sparked by fears, 
irrespective of whether they are unfounded, about a change in 
Jerusalem's status quo.
    There is no definitive way of knowing whether moving the 
American Embassy to Jerusalem will result in riots or violence, 
but the danger of mass demonstrations protesting the Embassy 
move in Israel, the West Bank, and Muslim majority countries 
around the world will be high. This could affect not only the 
safety and security of Israelis but also the safety and 
security of American Embassies and diplomatic personnel around 
the world. While extremists should not be granted a role as 
spoilers, the U.S. should do what it can to avoid unnecessary 
risks and harm to its own property and personnel.
    The second reason is to safeguard the interests of other 
regional allies. Jordan and Egypt, in particular, are sensitive 
to issues surrounding Jerusalem and the Israeli-Palestinian 
conflict. And Jordan's peace treaty with Israel specifically 
recognizes its special and historic role in Jerusalem and the 
Temple Mount.
    Moving the Embassy risks unrest in these countries and will 
make it more difficult for their governments to cooperate with 
the United States on other regional issues. Moving the Embassy 
will also put further strain on the peace treaties that Israel 
has with Jordan and Egypt, which are constantly subject to 
pressure due to their unpopularity with the Jordanian and 
Egyptian publics.
    Finally, moving the Embassy now will damage any Israel 
Palestinian peace initiative that the Trump administration is 
planning to unveil, along with harming any future efforts in 
this arena by this administration or any successive ones. 
Moving the Embassy at the beginning of a renewed peace process 
rather than as the culmination of a successful round of 
negotiations will make a two-state solution, which has been 
longstanding American policy and is the stated policy of the 
Israeli Government, harder to achieve. It will sow Palestinian 
distrust of the United States as an honest broker and may lead 
the Palestinians to refuse to negotiate if they view one of the 
core final status issues as already being prejudged.
    Moving the Embassy should be done in the context of a 
successful negotiating process, in keeping with decades of 
American policy precedents, and should not be done in the 
aftermath of a failed or stalled negotiation. In this instance, 
what is fair policy is not the same as what is prudent policy. 
Any change in the Embassy status must be comprehensively 
weighed against the grave and unintended consequences that may 
occur should the Embassy be relocated to Jerusalem at this 
point in time.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Koplow follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    The chair now recognizes Professor Kontorovich for 5 
minutes.

                STATEMENT OF EUGENE KONTOROVICH

    Mr. Kontorovich. Mr. Chairman, Ranking Member Lynch, 
members of the committee, thank you for having me at the 
hearing today.
    My written testimony deals with issues involving the status 
of the corpus separatum, the structure of waivers under the 
act, but I'm going to forego those issues in my comments right 
now and focus on the objections to moving the Embassy because 
it seems, in a kind of diplomatic version of Augustine's 
prayer, everybody agrees that the Embassy should be moved, just 
not yet. And so I'm going to focus on those ``not yets,'' ``not 
right nows.''
    The arguments focus on certain practical concerns, whose 
existence or realism can't really be proven while the waiver is 
issued, and so they are, in a sense, unfalsifiable. But one 
interesting thing about the arguments for not moving the 
Embassy, security arguments essentially, is that they have not 
changed in the 20-some years since the act's passage, despite 
the radical change in the security and political, geopolitical, 
situation in the region. In a sense, they are entirely 
unresponsive and invariant to political development.
    They can be summarized like this: Don't move the Embassy 
until the Palestinians, and maybe the Jordanians and the 
Egyptians, say it's okay. Don't move the Embassy until they 
agree. This holds American policy, this holds a statute subject 
to veto and waiver by third countries. In no geopolitical 
conflict, in no geopolitical dispute do we give parties, do we 
give neighbors, a waiver on where the U.S. Embassy should be. 
That is to say, maybe Pakistan and India would like the U.S. 
Embassies to those countries to be somewhere else, but we don't 
ask them.
    Now, it's not surprising that supporters of the 
Palestinians come and couch their arguments in national 
security terms, that is to say, implied threats of violence. 
Under the terms of the statute, the only reason for not 
implementing it is national security. The only permissible 
waiver is national security.
    Not surprisingly, we commonly hear national security 
threats from the Jordanians and the Palestinians, that they're 
in a sense shoehorning their foreign policy and political 
concerns into this justification. It's not surprising that such 
threats continue to be made because the Palestinian Authority 
finds that such threats work. They continue to keep the U.S. 
Embassy from being moved. This means that waiving the act based 
on such threats, in fact, invites further threats. Waiver 
creates its own predicate.
    I should point out that the security arguments have been 
significantly undermined by recent developments in the region. 
The security arguments were first made when the act was passed 
over 20 years ago, and they continue to be recited as if 
nothing has changed.
    One, the Sunni States, in particular Saudi Arabia, are--as 
of now--literally at war with Iran. They cannot afford a rift 
with the United States. The notion that Saudi Arabia would 
endanger itself--it just shot down yesterday an Iranian-
provided missile with a Patriot missile battery--the notion 
that it would endanger the air security of Riyadh over the 
Embassy issue is preposterous. The notion that Jordan would 
expose itself to ISIS threat because of the Jerusalem Embassy 
issue is preposterous.
    So there has been a fundamental realignment in the Arab 
world. Twenty years ago, when people said that the Arab street 
is going to explode, that meant one thing. Now, I would point 
out, the Arab street has already exploded, principally 
internally. We need not fear riots against the U.S. in 
Damascus. The U.S. no longer has diplomatic representation 
there. Benghazi happened, not because of the Jerusalem Embassy. 
In other words, the people committed to keeping America out of 
the MiddleEast already, they are fully incentivized. U.S. 
Embassies in the area are constantly under threat. There was a 
threat this year to the Embassy in Cairo. Indeed, in 1998, two 
U.S. Embassies in Africa were blown up, in Tanzania and Kenya.
    The response of the United States was not to cut and run 
and say: Wow, there are people who threaten violence to our 
presence here; we might as well leave.
    The response by Congress was to appropriate nearly $1 
billion for embassy security and, of the executive, to hunt 
down the perpetrators and ensure that they come to justice. 
That's the American response.
    There is no other situation in which threats to embassies, 
especially to a major ally, are a reason for not having 
diplomatic representation in a country's capital.
    In particular, this has a very bad consequence for the 
peace process because it puts Israel in a special unique 
category where its existence, its sovereignty over its capital, 
is only provisionally recognized. It's recognized with a 
question mark. Israel is a country in a class of one. That 
undermines the peace process.
    Moreover, the Palestinians base their claims to a state to 
the Jordanian and Egyptian conquest of areas of the British 
mandate in 1949. Large parts of Jerusalem, including potential 
locations for the Embassy, are not in those areas illegally 
conquered by Jordan and Egypt, and the Palestinians have no 
conceivable claim to them. Waiting for a--tying this to the 
peace process makes the Palestinians' eyes bigger than their 
plate and gives them an appetite for that which they could not 
potentially have and fundamentally undermines the peace 
process.
    [Prepared statement of Mr. Kontorovich follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    The chair now recognizes himself for 5 minutes.
    Ambassador Gold, sometimes in America, people will say: 
Yeah, yeah, yeah, we want to move the Embassy, but the Israelis 
really don't want the Embassy in Jerusalem.
    I've been to Israel recently. Left, right, center, they all 
said to move it. Is that accurate that Israel would welcome it? 
Not that Israel is dictating what President Trump does, but 
would it be welcome in Israel.
    Mr. Gold. A, I believe it would be welcome. B, this sounds 
like Act II of something we went through earlier in the year 
called the Taylor Force Act, where people were saying Israel 
doesn't really want it. Really? Is that true? Somebody went to 
Tel Aviv and had coffee in a coffee shop and came back as an 
expert on Israel?
    So let me reassure you: Our Prime Ministers have all 
sought, if we're asked, that the U.S. Embassy be moved. Yitzhak 
Rabin, who was the father of the Oslo Agreements in the 1990s, 
spoke about Jerusalem remaining united under the sovereignty of 
Israel. And our public opinion polls indicate support for that. 
That is not the same as the Embassy, but it's all part of the 
same complex. Support for Jerusalem, the U.S. position in 
Jerusalem is at an all-time high.
    Mr. DeSantis. And correct me if I'm wrong, but there's no 
Knesset located in Tel Aviv. The Prime Minister's residence is 
not there. Your Supreme Court, it's all in Jerusalem, the seat 
of your government, all the major players. The people that we 
would want to be dealing with are in Jerusalem.
    Mr. Gold. In December 1949, at the end of the first Arab-
Israeli war, much of the world community advised Prime Minister 
David Ben-Gurion: Don't move--don't move--your capital to 
Jerusalem.
    And, of course, he gave some of the lines, which I shared 
with you earlier, that Resolution 181 has no moral force, and 
he declared that Israel was moving its Embassy to Jerusalem--
moving its capital to Jerusalem. The Knesset was moved to 
Jerusalem as a result of his decision back then in 1949.
    Mr. DeSantis. Israel, one of the remarkable things is just 
the archaeological wonders. I mean, you know, our country is 
just a blip on the map compared to the thousands of years of 
history. But how was that treated under the Arab occupation 
between 1949 and 1967, some of the destruction?
    Mr. Gold. Well, actually, since we weren't engaging in 
archaeology in a territory which Jordan claimed and their 
archaeological investigations were not particularly advanced, 
it wasn't affected.
    However, I will tell you this: Under our understandings 
with Jordan, we have said that the administration of the Muslim 
shrines on the Temple Mount are in the hands of the Waqf, which 
is a kind of endowment for religious institutions in Jordan. 
The Waqf has been completely irresponsible with respect to the 
areas under its jurisdiction. So, for example, when the 
Northern Branch of the Islamic Movement, the branch of the 
Muslim Brotherhood in Israel, engaged in illegal construction 
activities under the Al-Aqsa Mosque and then the Al-Aqsa 
compound, they removed hundreds of tons of archaeological 
rubble from the Temple Mount and threw it in a dump site 
outside, in the outskirts of Jerusalem. Since then, Israeli 
archaeologists have gone through that rumble and found precious 
items that have been saved. So I doubt, given that record, that 
these archaeological sites would be well taken care of if the 
management for East Jerusalem changed.
    Mr. DeSantis. Ambassador Bolton, the point was made by 
Professor Kontorovich that the Gulf States, these Arab states, 
they are worried about Iran; they have a President now in 
America who believes Iran is a threat, who thinks the nuclear 
deal was a bad deal. Are they all of a sudden not going to work 
with us and Israel simply because we move our Embassy to 
Jerusalem?
    Mr. Bolton. No, I think it would have no material effect at 
all either on the broader geostrategic in the Middle East or on 
the Middle East peace process involving Israel or really on 
anything significant. You know, there's a lot of rhetoric in 
public in diplomatic matters that suits the political needs of 
the people who are uttering the words, when behind the scenes 
you're hearing something completely different, which is, ``We 
understand.''
    The issue for me is, what's in the best interest of the 
United States? How are our interests best served? How can our 
diplomats be most effective? And I think the argument there is 
incontestable. What hurts us is when we give in to unfounded 
pressure and intimidation because it says something about the 
United States that we won't do what's purely common sense. It's 
harmful to us. It's harmful to Israel. It's harmful to the 
stability in the region.
    Mr. DeSantis. Professor Kontorovich, the statement that was 
issued and entered into the record by Ambassador Kurtzer 
compared U.S. posture towards Jerusalem with Russia annexation 
of Crimea, that if we think Crimea was wrong, how could we 
possibly want our Embassy in Jerusalem. Do you think those two 
things are parallel to one other?
    Mr. Kontorovich. I think there's a lot to learn from our 
reaction to Crimea that's relevant to Jerusalem, but it goes 
exactly in the opposite direction of what Ambassador Kurtzer 
suggests, and I would refer you to my article and commentary on 
Crimea and Israel's borders.
    The reason America did not recognize Russia's seizure of 
Crimea is not because the people there are not Russian or they 
don't want to be part of Russia. It was because it was part of 
the Ukrainian Soviet Socialist Republic until Ukrainian's 
independence. And under international law, when a new country 
is created, its borders are the borders of the last top-level 
administrative unit in that area. So, when Ukraine is created, 
Crimea is within its borders, even though how that came to be 
was not necessarily fair, democratic, or reflecting self-
representation. We go by that doctrine. We say Crimea belongs 
to Ukraine.
    When Israel became a country, the last top-level 
administrative unit was the British mount--Mandate for 
Palestine. There was no corpus separatum. There was no West 
Bank. And thus the presumptive borders of Israel upon its 
birthday include all of Jerusalem, not to mention Judea and 
Samaria, and thus Jordan's invasion would be like Russia's 
invasion of Crimea, and it would have been an act that we can 
give no recognition to.
    Mr. DeSantis. Thank you. I now recognize the ranking 
member, Mr. Lynch.
    Mr. Lynch. Thank you very much, Mr. Chairman.
    Dr.Koplow, the United States is currently relying on the 
cooperation of our Arab allies, like Egypt, Saudi Arabia and 
Jordan, in cooperation to really stabilize the security 
interests in the region, including for Israel.
    Jordan, we've had unequivocal support from King Abdullah 
against ISIS. He said: We will root them--there's a quote here, 
he's quoted, ``a relentless war against ISIS,'' and ``hit them 
in their own ground.'' He's been in unequivocal support of our 
efforts there. I hearken back to, in Egypt, when the Morsy 
regime came in after Qadhafi's--Mubarak's removal, they 
actually were considering abrogating the 1979 Egypt-Israel 
Peace Agreement that was negotiated between Anwar el-Sadat and 
Menachem Begin, for which they received the Nobel Peace Prize. 
Now with al-Sisi's regime in there, they have lived up to the 
letter of the law and secured the situation on Israel's 
southern border with respect to Gaza.
    In deciding if we should move the U.S. Embassy now, should 
the U.S. at least consider and engage these neighbors in terms 
of what that move would present to, you know, the monarchy in 
Jordan or al-Sisi's government in Egypt.
    Mr. Koplow. I think that absolutely the U.S. needs to 
consider the opinions of these other allies.
    Israel, of course, is our most stalwart and reliable ally 
in the region, but we do have our Arab allies as well with whom 
we work on a number of things. Take Jordan, in particular. 
Right now, Jordan is a vital partner of the United States in 
counterterrorism operations. It's a vital partner in the fight 
against ISIS. Jordan contributes troops in support to the U.S.-
led coalition forces fighting ISIS.
    Jordan also has an enormous refugee problem, as we've noted 
from Syria. And staunching the flow of refugees is in American 
interest as well. And, of course, it is within Jordan's 
interest to continue these things, but there are ways in which 
they cooperate with the United States now that may be more 
difficult should we move the Embassy.
    We, this year, conducted the largest ever military 
exercises with the Jordanian Army than we ever had. That is the 
type of thing that public pressure can be brought to bear and 
have those cut off. And I would note that there are recent 
examples in Jordan and in other countries around the region 
where domestic politics, because of public pressure, indeed 
trumps national security interests.
    For instance, in the Israeli-Palestinians here, the 
Palestinian Authority in July stopped cooperating with Israel 
on security coordination, which is the biggest factor in 
preventing terrorism in Israeli cities, and security 
coordination certainly helps the PA in keeping the PA in power. 
That security coordination was not restored until only a few 
weeks ago. Now, that's something that it was in the PA's 
security interest to maintain, but public pressure over 
Israeli-Palestinian issues prevented it from happening.
    With Jordan as well, currently there is no Israeli 
Ambassador in Jordan. She was recalled due to an incident in 
the Israeli Embassy in Jordan. The Jordanian Government 
certainly has an obvious interest in continuing to cooperate 
with Israel on national security grounds, but again, public 
pressure can sometimes lead to consequences that are not good 
for either country.
    And so, in Jordan, in particular, I think it's something to 
worry about, and with Egypt as well. Of course, Egypt is a 
partner against ISIS in Sinai and elsewhere, but it's also 
important to note that, in the last 2 months, Egypt has taken 
on a much larger role in keeping things quiet in Gaza than they 
have before. Again, public pressure is brought to bear on these 
countries, even though they are not democracies. There are 
still audience costs that affect these things. And I think that 
if the United States moves the Embassy, it is going to put much 
of this cooperation at risk. And as I noted in my testimony, 
it's something that we should absolutely consider when weighing 
the balance of interests here.
    Mr. Lynch. Thank you.
    The members of this committee probably are in the Middle 
East, including very frequently to Israel, but to some of these 
neighboring countries on a frequent basis. The cooperation of 
Egypt in Gaza--I've only been into Gaza a couple of times--but 
such a proximate threat, Egypt's military cooperation is 
extremely, extremely important. The concerns raised by King 
Abdullah in Jordan about--you know, sometimes I think we take 
for granted that we've got a friendly administration there in 
Jordan.
    And is there, I mean, think about it: If we had a hostile 
government in Jordan, what would that mean? Is King Abdullah's 
concerns about his monarchy, his government being tipped over 
by the street, some of the more--not insurgent--but more 
radical elements of the population there, is that legitimate, 
or do you think it's overstated?
    Mr. Koplow. Certainly, I don't think anyone can predict 
whether it will happen, but I think that, to the extent that 
King Abdullah and the Jordanian Government expressed these 
concerns, we should certainly take them seriously. Jordan is a 
country that is majority Palestinian. Some estimates have it as 
large as 70 percent Palestinian. They are very sensitive to 
issues within the Israeli-Palestinian conflict, and these types 
of issues really, as I noted, create lots of pressure on the 
King of Jordan to either cease cooperating with Israel or to 
cut back cooperation with the United States. And Jordan, in 
particular, is sensitive to issues in Jerusalem, as I noted, 
given its historical role there and given the role that the 
Israeli Peace Treaty grants to Jordan over holy places in 
Jerusalem.
    And, really, any sudden moves, when it comes to Jerusalem, 
impact Jordan in a real way. As you noted, Jordan is as 
reliable an Arab ally as we have in the region. They are vital 
for our security on a number of fronts. I think that even 
risking the danger of the Jordanian Government being replaced 
or something happening to King Abdullah really would impact 
American national security interests in a fundamental way in 
the Middle East.
    Mr. Lynch. Thank you.
    Thank you, Mr. Chairman. I yield back. Thank you for your 
courtesy.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes Mr. Comer for 5 minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    Ambassador Bolton, the Trump administration has clearly 
stated that it intends to move the U.S. Embassy to Jerusalem 
and, quote, ``the question is not if that move happens, but 
only when,'' end quote.
    Ambassador Bolton, when is the appropriate time to make 
this move and why?
    Mr. Bolton. Well, I think the appropriate time to make the 
announcement is today. And let me just say, in respect of the 
comments that have been made about the strategic implications 
of a move, as I said in my prepared statement, I think we 
should take very seriously the concerns of countries like 
Jordan and Egypt. But I don't think that means they have a 
veto. I think it means we do what diplomats do. We consult with 
them in advance. We explain our reasons. We work with them to 
facilitate their ability to explain to their own citizens why 
it's happening.
    And let's be realistic; the construction of a new embassy 
is not something that happens in 24 hours. First, you have to 
announce it. Then you have to break the ground. I suppose you 
have to design the Embassy first. You have to build it. You 
have to dedicate it. You have to--this is going to take place 
over years. And so there's a long period of time involved. And 
if the decision to go forward floor by floor of the Embassy 
varied with the temperature of the Middle East peace process, 
this building could take forever to build.
    I think it's very important that we understand that the 
country in the world most sensitive to the regime in Jordan, 
most aware of the implications for security, is Israel. And it 
defies credulity to think that Israel would advocate a step 
that could cause King Abdullah to be overthrown and a terrorist 
regime to take power there. They're not going to do it, and 
neither are we.
    Mr. Comer. Thank you, Ambassador. With the stalled peace 
process and deteriorating security situation in the Middle 
East, what do you think the U.S. could do to best support 
Israel and stand by our ally? Obviously, you touched on moving 
the embassy, but what are some other things?
    Mr. Bolton. Well, beyond the embassy, I think the greatest 
threat to peace and security in the Middle East remains the 
Iranian nuclear weapons program, which has not paused, has not 
slowed down, has been camouflaged by the Iran nuclear deal. I 
have disagreed with the administration on the handling of that 
deal. I would break it immediately and establish a new reality.
    But I think specifically in terms of Gaza and the West 
Bank, I really think that the United States is taking advantage 
of a potential for a reopening of the peace process. I think 
it's significant that the Trump administration is moving at the 
beginning of its term, not at the end as happens so often in 
the past. And I don't know whether the chances for success are 
any better or any worse. But when it comes to the embassy 
issue, the administration's effort is going to have its ups and 
downs, like all peace processes. And if you said after a step 
forward in the peace process, well, we don't want to risk that 
by moving the embassy, or at a downturn in the peace process, 
well, we don't want to tank it entirely by moving the embassy, 
this is how not now becomes not ever. And I think that's a 
mistake.
    I think when the United States acts in a realistic way, 
recognizing a reality in a particular region, it enhances our 
credibility, it demonstrates that we are prepared to act on the 
basis of reality. That makes our efforts I think more likely to 
succeed, not less likely.
    Mr. Comer. Right. One of my colleagues had mentioned that 
when they were in Israel everyone that they had talked to, or 
the majority of the people in Israel supported moving the 
embassy. When I was in Israel this summer, that was my 
impression too, speaking to a vast array of Israelis there in 
Jerusalem and Tel Aviv. Getting back to the embassy, opponents 
of moving the embassy, opponents here in Congress, have 
cautioned that it could hinder the peace process. Do you 
believe peace negotiations between Israel and the Palestinians, 
do you think that that would impede that in any way? And why or 
why not?
    Mr. Bolton. No, I don't think it would affect the overall 
Middle East peace process. I think the embassy move has been 
given a symbolic significance well in excess of its practical 
effects. If you believe, and some do, that the United States is 
fundamentally biased against the Arab side, that it's so much 
in the tank for Israel that we can't be an honest broker, and 
they cite the billions of dollars of military and economic 
assistance we have given to Israel since Camp David--and quite 
properly, in my view--they look at the world historical events 
that have affected the Middle East since the 1967 war at least, 
what possible effect can moving the embassy have in comparison 
to all of that? I mean this has taken a pebble and made it into 
a mountain.
    And the way to break through that, and I do think it is 
scholasticism, as I said in my testimony, is to move forward 
with actually relocating the embassy, acknowledging the reality 
that Jerusalem is the capital of Israel. It's going to be in an 
area west of the green line that nobody except a proponent of 
eradicating Israel entirely would ever say would be in a 
Palestinian state. So putting it in a place that nobody's 
disputing cannot affect either final status or the broader 
peace process.
    Mr. Comer. Well thank you, Ambassador. My time is up. I 
just want to conclude by saying I look forward to working with 
the Trump administration as we change directions with our 
policy towards Israel, and hopefully strengthen the support 
that we have with our greatest ally in that region.
    I yield back.
    Mr. DeSantis. The gentleman yields back. The chair now 
recognizes the gentleman from Vermont for 5 minutes.
    Mr. Welch. Thank you very much, Mr. Chairman, and for 
calling this hearing. And I thank all of the witnesses for your 
testimony. I think all of us here are strong supporters of 
Israel, even if we have some disagreements about particular 
issues, including the wisdom of moving the capital. And I think 
all of us here supported the very significant 10-year aid 
package to Israel. Ambassador Gold, you mentioned that 
President Trump made a commitment to move the capital and as 
you--pardon me?
    Mr. Gold. The embassy.
    Mr. Welch. The embassy. Thank you. And as you know, around 
the time of his inauguration, I think at his inauguration, King 
Abdullah came here. And my understanding from press reports is 
that he personally requested the President not to do that. Was 
President Trump wrong in accommodating the request of King 
Abdullah?
    Mr. Gold. Well, I can't say what King Abdullah said to 
President Trump because I wasn't there and I don't know.
    Mr. Welch. No, let's be serious here. We know that King 
Abdullah was opposed to moving the embassy.
    Mr. Gold. Look, let's say he was. You have to decide on the 
basis of your own interests. How much would moving the embassy 
have an effect on your----
    Mr. Welch. My question is was President Trump wrong in 
accommodating that request in not moving the embassy to 
Jerusalem, as he promised to do during the campaign?
    Mr. Gold. What I am saying is this: Whether you have a 
President who is a Republican or a Democrat----
    Mr. Welch. This is a specific question, Ambassador.
    Mr. Gold. Okay.
    Mr. Welch. I am asking about was President Trump wrong in 
that decision?
    Mr. Gold. My view, and I can only speak for myself, is that 
we hail the decision of an American President to move the 
embassy to Jerusalem. We are not going to second-guess the 
timing. That's an American interest.
    Mr. Welch. So President Trump was not wrong?
    Mr. Gold. I am not going to second-guess the tactics, the 
timing of moving it. He gave his word in principle that he is 
going to move the embassy. And I believe that he is going to do 
it.
    Mr. Welch. I am going to interrupt. I just want to say 
something. I think President Trump is showing great energy in 
the Middle East and with Israel. I think what Mr. Greenblatt is 
doing and what Mr. Kushner are doing is good. Now, would you 
agree that King Abdullah is a very important and loyal ally of 
the United States?
    Mr. Gold. I believe King Abdullah is a loyal ally of the 
U.S., and he is an important partner to the State of Israel, 
and we have a peace treaty with Jordan as well.
    Mr. Welch. My understanding is that there is significant 
progress in the relationships between Israel and many of the 
Sunni Arab states, Saudi Arabia, Jordan, Egypt. Is that your 
view as well?
    Mr. Gold. I fully agree with that view. I think what is 
happening in the Middle East----
    Mr. Welch. I don't have a lot of time. So is it in the 
interests of the United States and Israel to maintain solid 
relationships with those Sunni Arab states?
    Mr. Gold. It is in the interests of the U.S. and Israel, in 
my judgment, to build on those relations and encourage them. 
And if you may give me one more sentence on that issue, the 
principal factor affecting the Sunni Arab world is what you do 
with Iran. That is----
    Mr. Welch. So you would agree with Ambassador--I take it 
you would agree with Ambassador Bolton that we should rip up 
that Iran nuclear deal?
    Mr. Gold. No, I think you should upgrade it. I think you 
should take out the flaws and come up with a better agreement.
    Mr. Welch. I only have a little time. Ambassador Bolton, I 
just want to ask you a question. Is it your view that at the 
present time the holy sites in Jerusalem are secure with the 
Israeli security system?
    Mr. Bolton. Well, I think they are as secure as they can be 
under the circumstances.
    Mr. Welch. Would they be more secure----
    Mr. Bolton. I would like to answer your question to 
Ambassador Gold. I think the President was wrong in accepting 
the recommendation of King Abdullah, if that's what he said, 
and if that's what the President did.
    Mr. Welch. Right. I appreciate your candor.
    Mr. Bolton. I couldn't wait.
    Mr. Welch. Let me ask you this. There is a question on the 
holy sites. And all of us want them to be secure. Will they be 
more secure, in your view, if the embassy is moved to 
Jerusalem?
    Mr. Bolton. It will have absolutely no effect on the 
security of the holy sites.
    Mr. Welch. Ambassador Gold?
    Mr. Gold. I said in my testimony that you should encourage 
the common values that we have.
    Mr. Welch. No, the question is will the security of the 
holy sites be enhanced if the embassy is moved to Jerusalem?
    Mr. Gold. If anyone thinks that Israel may under certain 
circumstances or pressures withdraw from the core of Jerusalem 
and withdraw from the holy sites, you will have an explosion of 
violence, not reduced violence.
    Mr. Welch. I see my time is up, but my questions are not 
answered.
    I yield back.
    Mr. DeSantis. The gentleman yields back. The chair now 
recognizes Mr. Hice for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. I think it can be 
reasonably and effectively argued that the Obama administration 
undermined actually Israel's claim to Jerusalem by allowing the 
U.N. Resolution 2334, which specifically stated that the 
establishment by Israel of settlements in the Palestinian 
territory occupied since 1967, including East Jerusalem, has no 
legal validity. That's bothersome to me personally.
    Ambassador Bolton, let me ask you this. What was the impact 
of the Obama administration's decision to allow the U.N. 
Security Council to pass that resolution?
    Mr. Bolton. I think it was very destructive. I think it was 
utterly uncalled for. I think it was profoundly wrong. And I 
hope that the Trump administration will bend every effort to 
find a way, as much as it can practicably be done, to reverse 
that resolution. I think the right position was that 
articulated by President George W. Bush, which is that Israel 
is entitled to live behind boundaries that provide for peace 
and security. And the notion that the 1967 lines have any--
which are really the 1949 armistice lines--have any binding 
juridical effect is completely wrong. And indeed, the armistice 
agreements of 1949 all expressly say that these are armistice 
lines with no political value. We can argue that for a long 
time. But let me just say I think it was gravely damaging to 
American interests for President Obama to allow that resolution 
to be adopted.
    Mr. Hice. I agree with you. Would you say that that 
resolution was consistent with past U.S. policy?
    Mr. Bolton. No, past U.S. policy, I think under Presidents 
Republican and Democratic alike, would have called for the veto 
of that resolution.
    Mr. Hice. So what motivated the change?
    Mr. Bolton. I think President Obama had demonstrated over 8 
years that he thought Israel was responsible for much of the 
instability in the Middle East. Much as I think that he 
believed the United States and its views in the previous 
administration on Iran and other issues had caused instability. 
I think that motivated his decision. And I think he was 180 
degrees in the wrong direction.
    Mr. Hice. So it was an anti-Israel policy?
    Mr. Bolton. I don't know any other way to characterize it.
    Mr. Hice. I don't either. Would moving the embassy to 
Jerusalem help rectify that problem?
    Mr. Bolton. I don't really think it would change the 
fundamental reality of the resolution. Indeed, the thrust of my 
argument here is that moving the embassy is simply a practical, 
efficient decision for the United States to make in the 
interests of greater effectiveness for its own diplomacy. The 
only politicization in this issue comes from those who say that 
somehow they can affect a decision that is properly made by the 
United States and Israel where our embassy goes. That's the 
politicization. That's the interference. That's what should be 
unacceptable to the United States.
    Mr. Hice. Okay. Thank you. Mr. Klein, let me ask you, in 
light of this resolution that we are discussing, which quite 
frankly I totally agree is blatantly against Israel, can you 
discuss with the committee how the U.N.'s action impacted 
Israel?
    Mr. Klein. Well, this resolution was completely absurd in 
that it stated that the Jewish section of Jerusalem is occupied 
Arab territory, the Western Wall and the Temple Mount, 
Judaism's two holiest sites, is occupied Arab territory. It had 
no practical impact on Israel because in Israel everyone 
realizes it's absurd. And even throughout the world most people 
realized that's absurd. It really only sent a message of 
astonishing, really breathtaking hostility that President 
Obama's administration had towards the Jewish State of Israel.
    Mr. Hice. And the entire U.N. I mean it seems there is a 
blatant anti-Israel sentiment in the U.N. across the board that 
needs to be addressed. What can the United States do to help 
prevent and change this anti--Israel sentiment?
    Mr. Klein. Well, Ambassador Haley is beginning to do that 
by calling them out on their irrational and absurd positions 
against Israel when they ignore truly evil and horrific regimes 
throughout the world. And I think one thing that can be done, 
and there is legislation moving in that direction, is to make 
it clear to the U.N. that America will stop apportioning its 
share of funding of the U.N. if they do not change this 
outrageous resolution. I think if that happened, that 
resolution would be changed immediately. As opposed to the 
embassy not being moved immediately, that resolution would be 
changed immediately.
    Mr. Hice. Thank you for the recommendation. Thank you, Mr. 
Chairman. I yield.
    Mr. DeSantis. The gentleman yields back. And the chair now 
recognizes Mr. Jordan for 5 minutes.
    Mr. Jordan. I thank the chairman. Ambassador Bolton, how 
many countries are there in the world?
    Mr. Bolton. We have diplomatic recognition with over 190. 
There are 193 members of the U.N. There are----
    Mr. Jordan. One hundred ninety-three countries. My guess is 
we are the United States of America, we are the biggest, 
strongest country on the planet. My guess is we have embassies 
in just about every one, maybe not Iran and North Korea and a 
handful.
    Mr. Bolton. A few we don't recognize.
    Mr. Jordan. Yeah, a few we don't recognize, right? So 180-
some countries we have got an embassy in those countries. Is 
that right?
    Mr. Bolton. That's correct.
    Mr. Jordan. And in all those countries the embassy is in 
the capital or the seat of government except for one. Is that 
right?
    Mr. Bolton. Well, the only exception--the answer to that is 
yes, basically. The only exception to that is occasionally a 
country moves its capital city.
    Mr. Jordan. So it takes you a while to relocate.
    Mr. Bolton. I looked this up to be sure. For many years our 
embassy in Belize was in Belize City even though the capital 
was in Belmopan. But I see 10 years ago we finally moved our 
embassy. So we may be down to Israel alone.
    Mr. Jordan. So 188 countries that we recognize we have an 
embassy, every single one we put the embassy in the capital or 
the seat of government.
    Mr. Bolton. There must be something to that.
    Mr. Jordan. Except one. Now Israel, became a country in 
1948. Is that right?
    Mr. Bolton. Pardon me?
    Mr. Jordan. Israel became a country, it became a state in 
1948?
    Mr. Bolton. We were the first country to recognize its 
independence.
    Mr. Jordan. Exactly. My next question, and who was the 
first head of state to recognize the Nation of Israel?
    Mr. Bolton. Harry Truman.
    Mr. Jordan. Harry Truman, President of the United States of 
America. And then just a few years ago--well, I guess more than 
a few years ago--1995, we passed an act Jerusalem Embassy Act, 
that almost every single Member of Congress voted for. Is that 
right?
    Mr. Bolton. That's correct. Overwhelmingly.
    Mr. Jordan. I think it was a voice vote in the House, but 
in the Senate it was like 93 to 5, right?
    Mr. Bolton. Something like that.
    Mr. Jordan. And for this act to take effect and for the 
embassy to go to Jerusalem--this is amazing--Congress doesn't 
have to do anything, something we are actually pretty darn good 
at, right? And frankly the President. Doesn't have to do 
anything. Is that right?
    Mr. Bolton. That's correct. And it was a sign Congress was 
willing to pay for it too, which is also interesting.
    Mr. Jordan. So we don't have to do anything, the President 
doesn't have to do anything. Everyone has spoken. The President 
campaigned on this. The American people elected him, as this 
was a central issue of his campaign, we do it everywhere else 
except one country, which, oh, just happens to be one of our 
best friends in the entire world. Is that right?
    Mr. Bolton. That's correct.
    Mr. Jordan. This is what gets me. It is like this is real 
simple to me. This is about remembering your friends. This is 
about loyalty. This is about recognizing the fact that there is 
one country in the world who stands with us every single time. 
They happen to be the one country where we get our Judeo-
Christian value system from, the State of Israel, and yet they 
are the one nation where we won't put the embassy where it's 
supposed to be.
    And particularly now when you think about what we went 
through the last 8 years with the previous administration, and 
more importantly what happened the last few months of that 
administration at the United Nations. This is the right time to 
do this thing. And that's why the President recognized it, 
campaigned on it, and one of the reasons I would say the 
American people elected him. Would you agree, Ambassador 
Bolton?
    Mr. Bolton. I think that's entirely true. Yes.
    Mr. Jordan. So let's just get it done. Let's just get it 
done. Right?
    Mr. Bolton. I am entirely persuaded.
    Mr. Jordan. All right. I kind of thought you would be. 
That's why I asked the questions of you. I think actually most 
of the panel is. I want to thank the chairman. He has worked 
hard on this. I want to thank all our witnesses who came here. 
Most importantly, I want to thank the President of the United 
States, who had the courage who said this was the right thing 
to do, the time is now, particularly in light of what we went 
through the last 8 years.
    Let's get this done. Let's get it done as quickly as 
possible. I understand there is some practical concerns. You 
have all outlined them. Ambassador Gold outlined them. That's 
fine. But let's get this done. It is the right thing to do, and 
when it comes--you got to remember who your friends are, who 
share your common set of values, the values that I think make 
the world a better place. Let's recognize all that and get this 
thing done.
    With that, I yield back.
    Mr. DeSantis. The gentleman yields the rest of his time to 
the chairman. Mort Klein, the significance of Jerusalem 
obviously I think is self-evident to the Jewish people. But in 
America, you are involved in politics, you know folks from 
Jewish activists, the Christian activists. This city matters to 
people here in America, does it not?
    Mr. Klein. Yes. As a matter of fact, the most recent polls 
show that Americans support moving the embassy to Jerusalem and 
keeping it an undivided city by over 4 to 1. So it's really 
overwhelming. And by the way, even the liberal ministers, I 
just wanted to add like Yossi Beilin, extreme left wing 
ministers, said the embassy must be moved immediately. So that 
is really the consensus in Israel overwhelmingly.
    But yes, in America the overwhelming majority of people 
support this move and have supported it for 22 years, since 
it's been--if I may say, the fundamental premise of why there 
is a debate is that the Arabs claim that Jerusalem is holy to 
Muslims. That's the premise. If it was not holy to Muslims, if 
they said they want to move it, that Haifa was holy to them, 
nobody would even talk. But this is a fundamental falsehood. 
The majority of people living in Jerusalem since the mid-1800s 
have been Jews, second largest number of people, Christians. 
The Muslims are the third since the mid-1800s. And the Arabs 
say, well, our Koran says that Muhammad went from Jerusalem to 
heaven. But what does it really say? It says Muhammad had a 
dream--not an occurrence, a dream--that on his winged horse he 
flew from the sacred mosque to the furthest mosque. The 
evidence makes it clear that this claim that the furthest 
mosque in Jerusalem can't be.
    When Palestine is mentioned in the Koran, it's referred to 
as the closest land, not the furthest land. So Jerusalem, which 
is in Palestine, cannot be the furthest mosque when Palestine 
is the closest land. And listen to this. One more thing. 
Palestine then had not yet been conquered by the Muslims. There 
wasn't a single mosque in Palestine when the Koran was written.
    Mr. DeSantis. Great. The gentleman's time has expired, and 
the chair now recognizes Ms. Foxx for 5 minutes.
    Ms. Foxx. Thank you, Mr. Chairman. And I want to thank all 
of our witnesses here today. It is a very enlightening 
presentation. And I want to say I want to associate myself with 
the comments of some of my colleagues. That way I don't have to 
repeat the comments of my colleagues.
    Ambassador Gold, the first thing I want to say is I think 
you do a wonderful job when you present the many different 
cases that you present when I occasionally have a chance to see 
you in the media. But I want to follow up on your verbal 
testimony. You mentioned the topic of Israel's ability to 
preserve the integrity of the status quo of the holy land 
sites. I find this interesting given that detractors of moving 
the embassy claim that it would be inflammatory and inciting.
    Can you expand on the ability of Israel to prove as a 
stabilizing force for religious exercise and speech and ward 
off religious incitement? Do you think Israel's sovereignty 
with respect to Jerusalem would be a positive influence on 
religious pluralism throughout the region?
    Mr. Gold. First of all, Israel views itself as sovereign in 
Jerusalem today. That's the situation. Now, in terms of 
protecting stability and security in that area, just go on the 
major holidays to the area of the Temple Mount, come on Ramadan 
and see how many tens of thousands of Muslims are praying near 
the Al Aqsa Mosque because they can't even get into the Al Aqsa 
Mosque because it's so full. Come on the time of Christmas to 
the Church of the Holy Sepulchre and see all the Christians who 
stream in for Christian holidays in the Old City. And then come 
to the Western Wall and see on the Jewish holidays, 
particularly the pilgrimage festivals like Passover, Shavuot, 
and others, come to the Old City and pray at the Western Wall.
    Jerusalem works. It operates well. And changing or 
expressing uncertainty of any kind about Israel's position only 
feeds radical elements who want to argue that the Jewish people 
have no connection with Jerusalem, or feeds all kinds of other 
baseless theories.
    Last but not least, I want to make this point, because it 
is an I think a current point that is very important. There is 
a sheik named Ra'ad Salah who heads the northern branch of the 
Islamic Movement, which is basically part of the Muslim 
Brotherhood. He used to come to Jerusalem a lot. He has been 
running around Israel and the region saying Israel is 
undermining the foundations of the Al Aqsa Mosque. And this 
heats up the whole region, this lie. And by the way, he has 
faced prosecution in the Israeli legal system. But one of the 
things we have to do is expose this lie, because frankly, the 
only one who ever threatened the foundations of any of the 
Muslim shrines has been him when he led groups to dig out tons 
of archeological areas near the Al Aqsa Mosque and created all 
kinds of problems which I don't have time to go into.
    Israel is taking care of the holy sites, it has been taking 
care of the holy sites, and will continue to take care of them. 
And if you don't have a responsible power to protect the holy 
sites, you are setting up a recipe for the next regional 
conflict.
    Ms. Foxx. Thank you very much, Ambassador. And again, I 
want to thank all of our witnesses for being here today. And 
thank you, Mr. Chairman, for the time. I yield back.
    Mr. DeSantis. The gentlelady yields back. The chair notes 
the presence of our colleague, the gentleman from California, 
Mr. Issa. I ask unanimous consent that he be allowed to fully 
participate in today's hearing. Without objection, it is so 
ordered.
    The chair now recognizes the gentleman from Florida, Mr. 
Ross, for 5 minutes.
    Mr. Ross. Thank you, Mr. Chairman. I appreciate the timing. 
You know, Ambassador Bolton, when you opened up you dispelled 
some of the myths with regard to the basis for not moving the 
embassy. And I guess one of them that concerns me the most was 
the second point about the fragility of the peace negotiations 
going on in the Mideast and how this may disrupt it. What 
impact did the U.N. Resolution 2334 have on the impact of the 
peace process in the Mideast?
    Mr. Bolton. Well, I think it was decidedly negative because 
it gave the false impression that the Palestinians and their 
supporters could win in the halls of the United Nations what 
they failed to win at the negotiating table.
    Mr. Ross. And we turned a blind eye to that with an 
abstention.
    Mr. Bolton. It was a catastrophic decision by the Obama 
administration.
    Mr. Ross. Would you agree that any successful peace 
negotiation has to have the United States at the table?
    Mr. Bolton. Anybody who doesn't understand that doesn't 
understand reality.
    Mr. Ross. And if we are going to negotiate, should we not 
negotiate from a position of strength? I mean if you are going 
to negotiate to win, I would suggest that that would be the way 
we would go about doing this.
    And then we allow tacit approval of the U.N. Resolution 
2334, which shows our weakness to our greatest ally. And then 
we get resistance for moving an embassy because it's going to 
disrupt the peace process. The anomaly there is just illogical. 
Not that what we do here has any basis in logic or reason.
    But I guess my second point is that, and Ambassador Gold, 
you talked about this, about the sanctity of the holy sites. 
Who better than the Israeli people, who have been the 
protectorate of these holy sites, to allow them to continue to 
do so? And would it not, again in accordance with logic and 
reason, dictate that the move of the embassy from Tel Aviv to 
Jerusalem would give even a higher sense of security and a 
higher sense of clearance to allow for an even greater 
preservation of these sites?
    Mr. Gold. And I want to remind you between 1948 and 1967, 
when we lost the Old City, our holy sites were attacked. We 
have photographs. Actually, I was going to put them up, and I 
don't know what happened to our audiovisual, we had holy sites 
that came under attack, medieval synagogues blown up by shells 
of the invading armies that came in at that time. That's not 
something Israel did, that's something our neighbors did when 
they moved into Jerusalem. So our proven record in protecting 
holy sites is open for everyone to see.
    Mr. Ross. And in fact not only open for everyone to see, 
but open for everyone to see regardless of ethnicity, religious 
background, nationalism, anything. I guess my point is that 
here we are arguing over what I think are baseless arguments to 
not move the embassy, and yet we stand again in abeyance with 
the peace process that if we are going to deal with a peace 
process, it would seem to me that if the U.S. is going to be a 
partner to succeed in a Mideast peace that we should then show 
some strength.
    And that greatest sense of strength, now be it deliberate--
I don't mind waiting 6 months or a year to make sure that it's 
the right move and we make sure that we have reached out to our 
allies--that it would seem to me that our best position in 
order to effectuate a peace, if peace is sought by the 
Palestinians, that moving the embassy in and of itself would be 
a step in the right direction. Would you all agree with me?
    Mr. Bolton. I think that's certainly correct. And I think 
it goes to what I believe is the fundamental misconception 
about the potential impact of an embassy move, which assumes in 
part that the United States today is in equipoise between the 
Palestinians and the State of Israel, when in fact if you look 
at the imbalance in economic assistance, billions and billions 
to Israel compared to a relatively smaller amount through the 
U.N. and directly, nobody can believe that we are in equipoise 
on that.
    So the issue is not in the abstract would some people 
disagree with us to move the embassy, but what is the aggregate 
delta, what is the real change in the strategic reality in the 
region? And the answer is the change is de minimis.
    Mr. Ross. I agree with you.
    Mr. Gold. Let me just make one point.
    Mr. Ross. Ambassador Gold.
    Mr. Gold. When you are involved in negotiations, one of the 
strategies to make negotiations work is to get the parties into 
what I would call the box of realism. If people have wild-eyed 
fantasies that they can achieve goals that there isn't a chance 
in hell of reaching, you are never going to go forward. You 
move the embassy, you create a box of realism for our 
neighbors. Israel's not going to give up Jerusalem. Somebody 
better digest that. It's going to be the capital--it has been 
the capital of Israel and will remain the capital of Israel. 
Your moving the embassy reinforces that box of realism and 
brings us just that much closer to a negotiated solution.
    Mr. Ross. Thank you. I realize my time has expired. I yield 
back.
    Mr. DeSantis. The gentleman yields back. The chair now 
recognizes the gentleman from Wisconsin, Mr. Grothman.
    Mr. Grothman. Thanks. I am going to go down a little bit 
different path here. Anyone can answer this. Right now of 
course the United States maintains a diplomatic representative 
to the Palestinians. And that is in West Jerusalem.
    Is there any doubt, if you are familiar with where that 
diplomatic representative is, is there any doubt, does anybody 
dispute the fact, except the most extreme elements, that that 
diplomatic representation is in Israel?
    Mr. Bolton. Well, the location of the building is in West 
Jerusalem, but in actual fact, and this has been true for over 
a quarter of a century, even longer, that consulate has been 
perceived at the State Department as the de facto embassy to 
the Palestinian State. And that's a problem in and of itself.
    Mr. Grothman. Right. Just to compare the two as far as, you 
know, what we're dealing with here. Could you compare the idea 
that as a practical matter the Palestinian representative or 
embassy is in Israel, but we can't put the Israeli Embassy, the 
American Embassy to Israel in Jerusalem?
    Mr. Bolton. I think there is actually a consulate facility 
in--east of the green line that does things like provide visas 
for Palestinians. But honestly, this goes to a larger point 
that I don't think any of us perhaps covered except in the 
prepared testimony about rationalizing what our view is on a 
potential outcome of the peace process to begin with, and 
whether we think a two-state solution is still viable. I am not 
sure you can solve that all at once. And that's why the 
question of whether we should relocate our embassy into 
indisputably sovereign Israeli territory in West Jerusalem is 
actually the easiest part of it and the first thing we can do.
    Mr. Grothman. I really loved Ambassador Gold's comments, 
because he hit the nail on the head. You know, I think we move 
the embassy, it would put some realism into some discussions 
over there. I will bring up another matter, though. Since we 
are talking about where the Israeli Embassy is, we just spent a 
second here on where as a practical matter the American Embassy 
to the Palestinians is.
    Do you think it would introduce a dose of reality if we 
moved that embassy or representative, whatever you want to call 
it, to Ramallah, rather than put it in Jerusalem? Does that 
also, the fact that that building is in Jerusalem, does that 
also kind of encourage this lack of common sense or lack of 
reality in the region?
    Mr. Bolton. I think others will want to comment on this, 
but I think we need to revisit the entire concept of having a 
kind of permanent de facto embassy to a Palestinian state that 
doesn't exist yet. I mean that person, at least the last time I 
was in the State Department, the consul general in Jerusalem is 
instructed not to have contact with officials of the Government 
of Israel, that their job is to talk to the Palestinians. 
That's one reason why the consulate there has the authority, 
which a few other consulates do, to send cables back to 
Washington without the approval of the Ambassador in Israel, 
the country in which it's located.
    And I just think this has been in aid of perpetuating the 
myth that if you think about it hard enough, a Palestinian 
state will appear out of nowhere. I think that's a mistake from 
the U.S. point of view. It's not realistic.
    Mr. Grothman. Ambassador Gold, you care to comment?
    Mr. Gold. If we take some of the principles that Ambassador 
Bolton has put forward about where embassies are located, you 
know, I think he is right, we don't--Ambassador Bolton is 
correct, we don't have yet a political solution to the 
Palestinian side.
    We don't know where Palestinian self-governing institutions 
will be located. And it would make sense that in the future any 
embassy would be located near those institutions. You know, 
sometimes there are Palestinians and Jordanians who speak about 
a federation or confederation.
    Does that mean that the U.S. Embassy in Amman should be 
involved? Who knows? But we are not yet at a political 
solution. So it's a little premature to start saying where the 
U.S. Embassy representing U.S. interests to the Palestinians 
should precisely be.
    Mr. Grothman. Okay. On the status quo, just to reiterate 
what you said, in the status quo as long as the U.S. Embassy is 
not in Jerusalem, it kind of implies that that could become a 
permanent state of affairs. And as long as what is operating as 
the de facto American Embassy to Palestine is in Jerusalem, it 
also kind of leaves the idea out there that that could be a 
permanent state of affairs. Correct?
    Mr. Gold. So I think what you are implying, and I think it 
is true, it gives a net effect that the Palestinians have a leg 
up on the claim in Jerusalem, which is not fair, which needs to 
be remedied.
    Mr. Grothman. Correct. Thank you very much.
    Mr. DeSantis. We have one of our strongest allies, only 
democracy in the Mideast, and yet we act like Jerusalem's not 
their capital, Tel Aviv. But then you have Palestinian Arabs 
who have rejected states, have gone to war with Israel for 
years and years, and we have something in Jerusalem for them. I 
mean it really is maddening. Good questions.
    The chair now recognizes Mark Meadows for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for your 
leadership on this issue. Obviously, as being members of the 
Republican Conference, there is always a very willing partner 
on behalf of the gentleman from Florida on issues that are pro-
Jewish and pro-Israel, and I thank you for your leadership. 
Ambassador Bolton, let me come to you. Would you suggest that 
there are a number of people in the State Department that are 
vehemently opposed to moving the embassy to Jerusalem?
    Mr. Bolton. Absolutely. And look, this is a problem at the 
State Department. I wrote about it in my book that I wrote 
after I was at the U.N., that there are elements in the 
Department who are excellent civil servants who follow the 
direction of new Presidents. There are others who think they 
should run American foreign policy. And they have been running 
this issue for as long as anyone can remember.
    Mr. Meadows. So to your knowledge were any of those people 
at the State Department elected on November 8th?
    Mr. Bolton. No, strangely, and they are not mentioned in 
the Constitution either.
    Mr. Meadows. And to your knowledge, when the President ran 
on this particular issue, do you believe that there were a 
number of people who felt like there was a reset in terms of 
our relationship with the Jewish community, and finally the 
United States of America?
    Mr. Bolton. Yes. And I think it's a campaign promise that a 
lot of people paid a lot of attention to. I think it's very 
important.
    Mr. Meadows. So would you characterize this as a campaign 
promise that if the President failed to follow through on that 
would be a major disappointment to the Jewish community?
    Mr. Bolton. Well, I will just speak as a Lutheran, it would 
be a major disappointment to me.
    Mr. Meadows. As an Evangelical, it will be a major 
disappointment to me. And I can tell you that it is something 
that not only have we brought up with the President directly, I 
can tell you that he understands the commitment that he has 
made on this particular issue.
    Dr. Koplow, I am going to come to you. There is always one 
skunk at the party. And so as we look at this, obviously you 
don't believe that we should be moving the embassy to 
Jerusalem. Is that correct?
    Mr. Koplow. I believe that national security considerations 
at this time dictate that we should probably leave it in Tel 
Aviv at least for another 6 months.
    Mr. Meadows. All right. So what has changed over the last 
20 years in terms of our national security interests? I mean 
because we continue to debate this over and over. Do you know 
who Erekat is?
    Mr. Koplow. I am sorry?
    Mr. Meadows. Do you know who Erekat is? Or Erekat?
    Mr. Koplow. Oh, Saeb Erekat, of course
    Mr. Meadows. So you know who he is. So how long has he had 
his job?
    Mr. Koplow. Certainly as long as I can remember.
    Mr. Meadows. Yeah. Well, the closest thing to eternal life 
here is an eternal job of being able to negotiate a peace 
agreement between the Palestinians and the Israelis. Wouldn't 
you agree?
    Mr. Koplow. Yes.
    Mr. Meadows. All right. So since he has not been successful 
in over 21 years, and the embassy has not been in Jerusalem, 
how could moving the embassy to Jerusalem have affected his 
track record? I mean so if we move it do you think he will be 
any less successful?
    Mr. Koplow. Do I think Erekat will be any less successful?
    Mr. Meadows. Yes.
    Mr. Koplow. I can't imagine that he personally will be less 
successful.
    Mr. Meadows. I agree. So from a national security 
standpoint, is the Knesset fairly secure?
    Mr. Koplow. Yes.
    Mr. Meadows. I have been there. It's very secure. So are 
you saying that we couldn't secure our embassy in Jerusalem? Is 
that what you are saying or you are just saying that 
geopolitically it makes national security less viable?
    Mr. Koplow. I have no doubt that we would be able to secure 
our embassy in Jerusalem the same way that we secure our 
embassy in Tel Aviv.
    Mr. Meadows. I agree. So what empirical data do you have 
that would suggest that this would create a national security 
incident? Because you were just talking, because I find your 
logic fascinating, you were just talking about how the 
Palestinians were pushing back against the security agreement, 
and yet the embassy is in Tel Aviv. So why would--I mean there 
is something to the logic that doesn't seem to mesh.
    Mr. Koplow. I think that there are a number of issues 
regarding Jerusalem that affect national security both for us 
and for Israel. The embassy is one of them. It's not the only 
one. But in general, as I note in my testimony, things that 
occur in Jerusalem tend to be the spark for----
    Mr. Meadows. So you are saying the very presence of a 
building in Jerusalem is going to create a national security 
issue?
    Mr. Koplow. I think it very well may.
    Mr. Meadows. Okay. And you don't have any empirical data to 
support that. That's just your feeling being a doctor from 
Georgetown in political science, right?
    Mr. Koplow. Based on the fact that other violent incidents 
in Israel are generally sparked by changes in Jerusalem, I 
think that one can assume that this is----
    Mr. Meadows. Could you possibly be wrong?
    Mr. Koplow. Absolutely.
    Mr. Meadows. Okay. Ambassador Bolton.
    Mr. Bolton. Just one quick point. On this question of 
physical security for American diplomats, I think anybody, 
probably many people on the committee, have been to Tel Aviv. 
You have seen our embassy. I can only imagine the heartburn 
that it causes in what we call OBO at the State Department, the 
Overseas Building Operations Bureau, the Diplomatic Security 
Bureau. It's very close to a main street. In contemporary 
terms, we would never build an embassy like that again.
    Obviously, building a new embassy in Jerusalem would give 
us ample opportunity to include the most advanced security 
techniques that we could. And I think our personnel would be 
safer in a new facility than in the embassy that they currently 
occupy in Tel Aviv. And we don't need to be reminded of the 
risks to our people overseas. None of us want to see those 
risks continued.
    So from that perspective, which involves American lives 
right on the front end, I think every consideration argues for 
moving the bulk of our personnel to Jerusalem.
    Mr. Meadows. Well, I agree. December 1st is a critical date 
because we have another waiver. It would be a great message 
that this President could send on the 50th anniversary of 
reunification that we go ahead and finally move the embassy to 
the eternal capital of Israel, Jerusalem.
    I yield back.
    Mr. DeSantis. The gentleman yields back. The chair now 
recognizes the gentleman from California, Mr. Issa, for 5 
minutes.
    Mr. Issa. Thank you, Mr. Chairman. I am going to pick up 
where my colleague from North Carolina left off. Dr. Koplow, 
and I will not describe you as anything other than a member of 
the party here, but since you seem to have concerns, let me run 
through a couple of quick questions. Do you know where the 
Ambassador spends most of--U.S. Ambassador to Israel spends 
most of his time while he is in Israel?
    Mr. Koplow. In the past, ambassadors have spent their time 
in Tel Aviv. And having met with Ambassador Friedman a few 
weeks ago, it was down in Tel Aviv.
    Mr. Issa. It's interesting, because I always see them at 
the King David, because as long as the Knesset is in session 
that's where they live, right?
    Mr. Koplow. In the past they have not lived in the King 
David every time the Knesset is in session, but I believe the 
State Department keeps a residence in the King David for the 
ambassador's use.
    Mr. Issa. Exactly. The State Department keeps a residence 
for the Ambassador at the King David, and has for decades. 
Ambassador Gold, would you confirm that from your experience, 
that if you want to meet the Ambassador in Jerusalem that's 
pretty much the digs he has to meet you at, isn't it?
    Mr. Gold. There has been an American facility in one of 
Jerusalem's hotels.
    Mr. Issa. So, I stay at the King David by choice, so we 
will just leave it as my favorite hotel in the city, Colony 
being a second. Now, having said that, the security at the King 
David is pretty good for a hotel. Ambassador Bolton, does it 
begin to meet the setbacks of safety, security for embassy 
personnel and the Ambassador that are the minimum standards of 
today's embassies?
    Mr. Bolton. No. It doesn't even come close. And I can tell 
from you my own personal experience when I was in New York, 
these security questions are extremely important. And we don't 
need Benghazi to remind us of it. These are Americans who are 
doing their jobs for us, are at greater risk because of the 
travel necessity between Tel Aviv and Jerusalem now, because of 
the insecure facilities, and because of the lost opportunity of 
building more secure facilities in Jerusalem.
    Mr. Issa. And Dr. Koplow, you have you been in the 
consulate, the full consulate that exists in East Jerusalem 
that services mostly Palestinians?
    Mr. Koplow. I have not.
    Mr. Issa. I have. It's a very large facility. Actually it's 
embassyesque in its setback and size. Have you been in the 
consul general's compound, which is separate, in West 
Jerusalem?
    Mr. Koplow. No.
    Mr. Issa. You know where the YMCA is over there?
    Mr. Koplow. Yes.
    Mr. Issa. It's a block and a half away. Now the interesting 
thing is the consul general does maintain a facility, and 
regularly mostly heads in and out of the West Bank, if you 
will. And I personally think it is a good location because it 
allows him a very safe location no matter what may be happening 
in the West Bank. But, in fact, they almost always on a daily 
basis go back and forth.
    What I find interesting is his facilities have significant 
setback considering it was once a private estate. The facility 
is permanent and has been expanded. The consulate that exists 
nearby is substantial and was built to modern standards. And 
yet today, as the Knesset meets in Jerusalem, the Ambassador 
stays in temporary rented facilities at some location in 
Jerusalem, and has no real proper place to conduct diplomatic 
business.
    So my question to you, Doctor, separate from the question 
of the term embassy for a moment, knowing that we have a 
facility for the consul general which is substantial, we have 
the actual consulate facility that does consular-type work, 
particularly, you know, visas and so on, is there any reason 
that we should not have proper safe facilities for the 
Ambassador when he or she is meeting--going in and out of 
meetings with the government, which is substantially normally 
located in Jerusalem, at least when the Knesset is in session?
    Mr. Koplow. I think that would be a question for the State 
Department to decide. I think in this case the security 
concerns aren't about the facility itself. I think the security 
concerns are more about wider geopolitical security and the 
overall security situation in Jerusalem for Israelis.
    Mr. Issa. Okay. So Congressman Juan Vargas, a former Jesuit 
priest, now a Congressman, and myself have a bill that calls on 
the State Department to build a permanent and substantial 
facility to house safely the Ambassador to Israel in or near 
Jerusalem for purposes of conducting the business of the 
American people before this Nation. Do you inherently have any 
problem with that portion, if you will, with that sub law? It 
doesn't say embassy. Do you have a problem with putting our 
Ambassador in a safe location and in proximity to the 
Government of Israel?
    Mr. Koplow. Without having seen the bill, I am reluctant 
to----
    Mr. Issa. Just take my description and I will write it to 
match your agreement.
    Mr. Koplow. I would say certainly in general I support 
anywhere the Ambassador is that facility should be secure.
    Mr. Issa. Okay. So if I can summarize, with the chairman's 
indulgence, the one thing that this entire panel I think 
agrees, based on head shaking, is that the current Government 
of Israel, of the Israeli people, is located in Jerusalem. That 
that government regularly meets there. That the Ambassador--
U.S. Ambassador has an obligation to regularly be there, and is 
there regularly. That that Ambassador is not currently in 
facilities that meet the Inman or other common standards of 
security, nor does it have the ability to host people in the 
way that ambassadors normally do at the embassy.
    That the embassy in Tel Aviv, sitting on--by the way, the 
other side of is sitting on the ocean. It's beautiful but it's 
also not protectable. That that facility is dated, and by 
definition doesn't meet the standards. And so regardless of the 
President's decision on the question of moving the embassy, we 
have a facility deficit, a security deficit that needs to be 
corrected, and the logical place to secure the Ambassador for 
most of the time is in a city where he currently does not have 
permanent U.S. facilities. I think that's what I heard everyone 
shaking their head for.
    So as the President decides this question, he's really 
deciding the question of safety of diplomats and security and 
our country's ability to do business with the capital--I am 
sorry, with the Government of Israel. Is that one we can all 
agree on even though I----
    Mr. DeSantis. The gentleman's time has expired.
    Mr. Issa. I know, but I am going for that long agreement, 
Chairman. Can I get a yes?
    Mr. DeSantis. I gave you some indulgence. We got to go 
because I know Brian Mast has got to move on, so I want to 
recognize him for 5 minutes.
    Mr. Mast. Thank you, Chairman, for the invitation to join 
your committee today. This has been a much needed hearing. I am 
going to ask just some very self-evident questions because this 
is such a self-evident issue, at least in my opinion.
    So I will just start at the end down here. Mr. Kontorovich, 
you know, can you tell me, what is the capital of the United 
States of America?
    Mr. Kontorovich. The Capital is Washington, D.C., of 
course.
    Mr. Mast. Certainly. And Dr. Koplow, in what U.S. city does 
Egypt maintain their embassy?
    Mr. Koplow. Washington, D.C.
    Mr. Mast. That's exactly right. We maintain ours in Cairo. 
Mr. Klein, I am sure you know the city in which--the U.S. city 
in which Jordan maintains their embassy?
    Mr. Klein. It could have been in Jerusalem. They chose 
Amman.
    Mr. Mast. That's where we maintain our embassy. They 
maintain their embassy here in Washington, D.C. Certainly 
Ambassador Gold, I am sure you know where Saudi Arabia here in 
the United States maintains their embassy.
    Mr. Gold. They maintain their embassy in the center of 
American power and influence, the Capital of the United States, 
Washington, D.C.
    Mr. Mast. You better believe it. And we maintain ours in 
Riyadh. Ambassador Bolton, I am certain that you can say where 
Israel and 177 other nations maintain their embassies here in 
the United States of America.
    Mr. Bolton. Turns out to be Washington.
    Mr. Mast. That's exactly right. So I guess short of 
invasion, I really can't think of a bigger slap in the face to 
any nation's sovereignty, their right to self government, their 
legitimacy than not recognizing their capital or their center 
of government. I think that us not celebrating having an 
embassy in Jerusalem, having the presence there, our diplomatic 
mission in Israel, having it there, I think it's absolutely a 
slight to our greatest of allies every single day.
    So in that, you know, I am going to keep my remarks very 
brief and just say this. You know, we are the leader of the 
free world. That is an undisputed fact and rightly so. So we 
need to be calling on every person in this town, every person 
in this building to lead and establish our embassy in the 
center of freedom in the Middle East, and that is the true 
capital of Israel, Jerusalem.
    Thank you for the opportunity to be here, Chairman, and I 
yield back.
    Mr. DeSantis. Yield the balance of your time to me?
    Mr. Mast. Absolutely.
    Mr. DeSantis. I thank the gentleman. I just wanted to thank 
the witnesses for your testimony. I think we have gotten a lot 
of very good information. I think it was presented very 
crisply. And I just come away from the hearing more convinced 
than ever that we need to follow this 1995 law.
    I would love to do it before the end of the year to 
coincide with the 50th anniversary of Jerusalem's reunification 
during the Six-Day War. But I think from a security perspective 
it makes sense. I think from the religious freedom perspective, 
the endorsement of Israeli stewardship over those religious 
sites is something that is very important both here, there, and 
I think throughout the world. And I think geopolitically, 
people will see that America is standing with a close ally. And 
that's exactly what we need to be doing at this point in time.
    The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record. If there is no further business, without objection 
the National Security Subcommittee stands adjourned.
    [Whereupon, at 11:58 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
